Audit Report




OIG-08-023
Audit of the Financial Crimes Enforcement Network’s
Fiscal Years 2007 and 2006 Financial Statements

December 14, 2007




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            December 14, 2007


            MEMORANDUM FOR JAMES H. FREIS, JR., DIRECTOR
                            FINANCIAL CRIMES ENFORCEMENT NETWORK

            FROM:                  Michael Fitzgerald /s/
                                   Director, Financial Audits

            SUBJECT:               Audit of the Financial Crimes Enforcement Network’s
                                   Fiscal Years 2007 and 2006 Financial Statements

            I am pleased to transmit the attached audited Financial Crimes Enforcement
            Network’s (FinCEN) financial statements for fiscal years 2007 and 2006. Under a
            contract monitored by the Office of Inspector General, KPMG LLP, an independent
            certified public accounting firm, performed an audit of the financial statements of
            FinCEN as of September 30, 2007 and 2006 and for the years then ended. The
            contract required that the audit be performed in accordance with generally
            accepted government auditing standards; applicable provisions of Office of
            Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control; and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found that the financial statements were fairly presented, in
            all material respects, in conformity with U.S. generally accepted accounting
            principles. However, KPMG LLP’s Report on Internal Control contained the
            following material weakness:

                •   Improvements are Needed in the Supervisory Review Performed over
                    Calculation of Expenses and Revenues for the Statement of Net Cost

            KPMG LLP found no instances of reportable noncompliance with laws and
            regulations tested.
In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. KPMG LLP is responsible
for the attached auditors’ reports dated November 30, 2007 and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Ade Bankole, Audit Manager, Financial Audits at
(202) 927-5329.

Attachment
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                                           Independent Auditors’ Report


Inspector General, U.S. Department of the Treasury and
Director, Financial Crimes Enforcement Network:

We have audited the accompanying balance sheets of the U.S. Department of the Treasury – Financial
Crimes Enforcement Network (FinCEN) as of September 30, 2007 and 2006, and the related statements of
net cost, changes in net position, budgetary resources and custodial activity (hereinafter referred to as
“financial statements”) for the years then ended. These financial statements are the responsibility of
FinCEN’s management. Our responsibility is to express an opinion on these financial statements based on
our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin No.
07-04 require that we plan and perform the audits to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes consideration of internal control
over financial reporting as a basis for designing audit procedures that are appropriate in the circumstances,
but not for the purpose of expressing an opinion on the effectiveness of FinCEN’s internal control over
financial reporting. Accordingly, we express no such opinion. An audit also includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements, assessing the
accounting principles used and significant estimates made by management, as well as evaluating the
overall financial statement presentation. We believe that our audits provide a reasonable basis for our
opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the U.S. Department of the Treasury – Financial Crimes Enforcement Network as of
September 30, 2007 and 2006, and its net costs, changes in net position, budgetary resources, and custodial
activity for the years then ended in conformity with U.S. generally accepted accounting principles.

As discussed in Note 15 to the financial statements, FinCEN changed its method of reporting the
reconciliation of budgetary resources obligated to the net cost of operations in fiscal year 2007.

The information in the Management Discussion and Analysis and Required Supplementary Information
sections is not a required part of the financial statements, but is supplementary information required by
U.S. generally accepted accounting principles and OMB Circular No. A-136, Financial Reporting
Requirements. We have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of this information. However, we
did not audit this information and, accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated November 30,
2007, on our consideration of FinCEN’s internal control over financial reporting and our tests of its


                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
compliance with certain provisions of laws, regulations and contracts and other matters. The purpose of
those reports is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in
accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audits.




November 30, 2007
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                          Independent Auditors’ Report on Internal Control


Inspector General, U.S. Department of the Treasury and
Director, Financial Crimes Enforcement Network:

We have audited the balance sheets of the U.S. Department of the Treasury – Financial Crimes
Enforcement Network (FinCEN) as of September 30, 2007 and 2006 and the related statements of net cost,
changes in net position, budgetary resources and custodial activity (hereinafter referred to as “financial
statements”) for the years then ended, and have issued our report thereon dated November 30, 2007. As
discussed in Note 15 to the financial statements, FinCEN changed its method of reporting the
reconciliation of budgetary resources obligated to the net cost of operations in fiscal year 2007.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin No.
07-04 require that we plan and perform the audits to obtain reasonable assurance about whether the
financial statements are free of material misstatement.

INTERNAL CONTROL OVER FINANCIAL REPORTING

The management of FinCEN is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2007 audit, we considered FinCEN’s internal control over
financial reporting by obtaining an understanding of the design effectiveness of FinCEN’s internal control,
determining whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls as a basis for designing our auditing procedures for the purpose of expressing our opinion
on the financial statements. We limited our internal control testing to those controls necessary to achieve
the objectives described in Government Auditing Standards and OMB Bulletin No. 07-04. We did not test
all internal controls relevant to operating objectives as broadly defined by the Federal Managers’
Financial Integrity Act of 1982. The objective of our audit was not to express an opinion on the
effectiveness of FinCEN’s internal control over financial reporting. Accordingly, we do not express an
opinion on the effectiveness of FinCEN’s internal control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph of this section and would not necessarily identify all deficiencies in the internal
control over financial reporting that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects FinCEN’s ability to initiate, authorize, record, process, or report financial data
reliably in accordance with U.S. generally accepted accounting principles such that there is more than a
remote likelihood that a misstatement of FinCEN’s financial statements that is more than inconsequential


                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
will not be prevented or detected by FinCEN’s internal control over financial reporting. A material
weakness is a significant deficiency, or combination of significant deficiencies, that results in more than a
remote likelihood that a material misstatement of the financial statements will not be prevented or detected
by FinCEN’s internal control.

In our fiscal year 2007 audit, we consider the deficiency, described in Exhibit I, to be a significant
deficiency in internal control over financial reporting, and we believe that finding is a material weakness.

INTERNAL CONTROL OVER PERFORMANCE MEASURES

As required by OMB Bulletin No. 07-04 in our fiscal year 2007 audit, with respect to internal control
related to performance measures determined by management to be key and reported in the Management
Discussion and Analysis, we obtained an understanding of the design of internal controls relating to the
existence and completeness assertions and determined whether these internal controls had been placed in
operation. We limited our testing to those controls necessary to report deficiencies in the design of internal
control over key performance measures in accordance with OMB Bulletin No. 07-04. However, our
procedures were not designed to provide an opinion on internal control over reported performance
measures and, accordingly, we do not provide an opinion thereon. In our fiscal year 2007 audit, we noted
no deficiencies involving the design of the internal control over the existence and completeness assertions
related to key performance measures.

                                  ______________________________

FinCEN’s response to the finding identified in our audit is presented in Exhibit I. We did not audit
FinCEN’s response and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of FinCEN’s management, the U.S. Department
of the Treasury Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 30, 2007
                                                                                        EXHIBIT I

                                   MATERIAL WEAKNESS


       IMPROVEMENTS ARE NEEDED IN THE SUPERVISORY REVIEW PERFORMED OVER 

       CALCULATION OF EXPENSES AND REVENUES FOR THE STATEMENT OF NET COST




The Financial Crimes Enforcement Network (FinCEN) has a manual process for allocating
revenues and expenses by its strategic goals in the statement of net cost (SNC). Embedded in the
accounting string of revenue and expense transactions are fund codes, cost centers, project codes,
etc. In order to produce the SNC by the four FinCEN strategic goals, FinCEN summarizes all
expenses by cost center and fund. Certain cost centers map directly to specific goals, while others
are allocated out. Cost centers that require an allocation to the different strategic goals are first
summarized by project codes, as certain projects map directly to strategic goals. The remaining
costs that are not directly traceable to a strategic goal are allocated across the four goals by the
percentage of full time equivalent (FTE) employees assigned to each program.

During the course of our SNC test work, we noted that the percentages used to apply the expenses
and revenues not directly traceable to a strategic goal were from FY 2006, and not as of
September 30, 2007. As a result, FinCEN had to reissue its financial statements after correcting
strategic goals one, two, three and four by approximately $1.6 million, $3.4 million, $1.4 million
and $3.6 million in expenses, respectively and $21 thousand, $45 thousand, $19 thousand and
$47 thousand in revenues, respectively. This error was not detected by FinCEN due to
insufficient supervisory review of financial statements and accompanying supporting
documentation.

OMB Circular No. A-123, Management Responsibility for Internal Control, states that:
Management is responsible for developing and maintaining effective internal control. Effective
internal control provides assurance that significant weaknesses in the design or operation of
internal control, that could adversely affect the agency’s ability to meet its objectives, would be
prevented or detected in a timely manner. Monitoring the effectiveness of internal control should
occur in the normal course of business. In addition, periodic reviews, reconciliations or
comparisons of data should be included as part of the regular assigned duties of personnel.
Periodic assessments should be integrated as part of management’s continuous monitoring of
internal control, which should be ingrained in the agency’s operations. If an effective continuous
monitoring program is in place, it can level the resources needed to maintain effective internal
controls throughout the year.

Recommendation:

We recommend that FinCEN improve its review procedures over the financial statements
preparation. Improvements should include:
o	 Implementing procedures to ensure accurate percentages are used in allocating expenses and
   revenues on the SNC.
o	 Adequate supervisory review of the final allocations performed over the SNC and the related
   footnote disclosures before issuing financial statements.
Management Response:

FinCEN agrees with the finding and believes that this was a one time occurrence that was a
deviation from its standard processing procedures. FinCEN has developed a corrective action
plan to address this issue as outlined below:
o	 FinCEN will follow its current procedure of calculating the percentages to apply to the
   statement of net cost for presentation by FinCEN’s strategic goals and then submitting those
   percentages to BPD/ARC for preparation of the statement of net cost and Note 11
   Intragovernmental Costs and Exchange Revenue. Upon update, FinCEN will review and
   recalculate to ensure the percentages have been correctly applied.
o	 FinCEN has established a procedure to reconcile and verify the amounts by its strategic goals
   to the detail supporting those amounts. FinCEN will also compare the current allocations to
   those of the previous year to ensure reasonableness and investigate material variances.
o	 FinCEN will ensure a two tier review of all statements and footnotes prior to issuing the
   statements and footnotes to independent auditors and other relevant entities.
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury and
Director, Financial Crimes Enforcement Network:

We have audited the balance sheets of the U.S. Department of the Treasury – Financial Crimes
Enforcement Network (FinCEN) as of September 30, 2007 and 2006, and the related statements of net cost,
changes in net position, budgetary resources and custodial activity (hereinafter referred to as “financial
statements”) for the years then ended, and have issued our report thereon dated November 30, 2007. As
discussed in Note 15 to the financial statements, FinCEN changed its method of reporting the
reconciliation of budgetary resources obligated to the net cost of operations in fiscal year 2007.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin No.
07-04 require that we plan and perform the audit to obtain reasonable assurance about whether the financial
statements are free of material misstatement.

The management of FinCEN is responsible for complying with laws, regulations and contracts applicable
to FinCEN. As part of obtaining reasonable assurance about whether FinCEN’s financial statements are
free of material misstatement, we performed tests of FinCEN’s compliance with certain provisions of laws,
regulations and contracts, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 07-04, including certain provisions referred to in the Federal Financial
Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with all laws, regulations and contracts
applicable to FinCEN. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report, exclusive of
those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to
be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

Under OMB Bulletin No. 07-04 and FFMIA, we are required to report whether FinCEN’s financial
management systems substantially comply with (1) Federal financial management systems requirements,
(2) applicable Federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level. To meet this requirement, we performed tests of compliance with FFMIA
Section 803(a) requirements.

The results of our tests of FFMIA disclosed no instances in which FinCEN’s financial management
systems did not substantially comply with the three requirements discussed in the preceding paragraph.



                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
This report is intended solely for the information and use of FinCEN’s management, the U.S. Department
of the Treasury Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 30, 2007
                             Department of the Treasury 

                        Financial Crimes Enforcement Network 


                           Management Discussion and Analysis 

                                  September 30, 2007 



The Financial Crimes Enforcement Network (FinCEN), a bureau within Treasury’s
Office of Terrorism and Financial Intelligence, plays a key role in supporting the
Department’s strategic goal of ‘Prevented Terrorism and Promoted the Nation’s Security
Through Strengthened International Systems.’ This role includes ensuring safer and
more transparent U.S. and international financial systems through the administration of
the Bank Secrecy Act (BSA).

The BSA requires financial institutions to file reports on certain types of financial activity
and to establish appropriate internal controls to guard against money laundering, terrorist
financing, and other types of illicit finance. These reports have a high degree of
usefulness in criminal, tax, and regulatory matters. The documents filed by businesses
pursuant to the BSA requirements are heavily used by law enforcement agencies, both
domestically and through exchanges with international counterparts to identify, detect
and deter money laundering whether it is in furtherance of a criminal enterprise,
terrorism, tax evasion or other unlawful activity. FinCEN also serves as the nation’s
financial intelligence unit (FIU). An FIU serves as a national center set up to collect,
analyze, disseminate, and exchange information pursuant to a country’s anti-money
laundering/counter-terrorist financing legislation and regulations. This includes
information about suspicious or unusual financial activity reported by the financial sector.

FinCEN fulfills its mission, goals and priorities by: administering the BSA; supporting
policy makers, law enforcement, regulatory, and intelligence agencies through sharing
and analysis of financial intelligence; enhancing international anti-money laundering and
counter-terrorist financing efforts and cooperation; and networking people, entities, ideas,
and information. FinCEN’s activities and efforts are developed in close coordination
with other federal agencies, such as through the 2007 National Money Laundering
Strategy, which sets forth interagency priorities for the coming years.

For FY 2007, FinCEN reported under the strategic goals in its current strategic plan.
Treasury reported FinCEN’s FY 2007 results under its new strategic plan. FinCEN’s FY
2007 strategic goals are as follow:

    •	   Protect the financial system;
    •	   Combat terrorism, money laundering and other financial crimes;
    •	   Intensify international anti-money laundering collaboration; and
    •	   Facilitate compliance, data management and information sharing through e-
         Government.
FinCEN’s strategic goals for FY 2008 are listed under the Future Outlook section of this
report.

FY 2007 Accomplishments

Some FY 2007 accomplishments in the regulatory area were:
•	 Published final and amended BSA regulations, these include: Amendment to the Bank
   Secrecy Act Regulations-Imposition of Special Measure Against Banco Delta Asia,
   Including Its Subsidiaries Delta Asia Credit Limited and Delta Insurance Limited, as a
   Financial Institution of Primary Money Laundering Concern (March 2007);
   Amendments to the Bank Secrecy Act Regulations Regarding Casino Recordkeeping
   and Reporting Requirements (June 2007); Anti-Money Laundering Programs-Special
   Due Diligence Programs for Certain Foreign Accounts (August 2007);
•	 Published additional BSA guidance to financial institutions to improve consistency in
   the interpretation and application of BSA regulations, and reduce misperception of
   excessive regulatory expectations. Specific guidance included: Guidance (Frequently
   Asked Questions) – Suspicious Activity Reporting Requirements for Mutual Funds
   (October 2006); Advisory – Potential Money Laundering Risks related to Shell
   Company (November 2006); Guidance (Frequently Asked Questions) – Customer
   Identification Programs and Banks Serving as Insurance Agents (December 2006);
   Guidance – Application of the Customer Identification Program Rule to Future
   Commission Merchants Operating as Executing and Clearing Brokers in Give-Up
   Arrangements (April 2007); Guidance – Requests by Law Enforcement for Financial
   Institutions to Maintain Accounts (June 2007); Guidance – Suspicious Activity Report
   Supporting Documentation (June 2007);
•	 Delivered complex analytical studies targeted to regulatory authorities from each of
   the 43 state regulators with which FinCEN has entered into a memoranda of
   understanding to exchange information;
•	 Developed and provided reports on mortgage loan fraud, money laundering through
   the commercial real estate sector, and shell companies to assist in the promulgation of
   guidance to financial institutions and regulatory examiners about vulnerabilities and
   associated compliance obligations;
•	 Participated as a speaker/panelist in 99 domestic and overseas outreach events;
•	 Enhanced outreach activities to the money services business (MSB) industry by using
   information from law enforcement partners that encounter potential unregistered
   MSBs to focus FinCEN’s education initiatives;
•	 Translated MSB brochures into seven different languages;
•	 Developed a strategy in conjunction with the Internal Revenue Service (IRS) to focus
   resources for ensuring BSA compliance by non-bank financial institutions;
•	 Implemented an action plan to address concerns among domestic and international
   policymakers, law enforcement, and financial institutions about the misuses of various
   types of business entities (e.g., corporations, limited liability companies, limited
   partnerships, trusts, etc.) to facilitate money laundering and other financial crimes; and
•	 Assessed civil money penalties against financial institutions for willful violations of
   BSA requirements, including through joint or concurrent actions with federal and state
   agencies.
•	   Contributed to the revisions of the Federal Financial Institutions Examination Council
     (FFIEC) BSA/AML examination manual, which helps ensure consistent application
     by federal and state supervisors of their regulatory authority.

Some FY 2007 accomplishments related to analytic efforts were:
•	 Enhanced support to law enforcement agencies by focusing on actionable analyses
   targeted at high-priority money laundering and terrorist financing targets;
•	 Collaborated on analytical projects with key federal law enforcement customers, such
   as the FBI’s Terrorist Financing Operations Section, the Drug Enforcement
   Administration, Customs and Border Protection’s Tactical Analysis Group,
   Immigration and Customs Enforcement’s Financial and Trade Division, and other
   analytical agencies like the National Drug Intelligence Center;
•	 Published a technical reference guide for law enforcement officials on MSBs to
   describe traditional types of remittances and services, as well as emerging services
   such as online payments and prepaid card services;
•	 Collaborated with other FIUs in the Egmont Group to improve understanding of how
   emerging payments methods, such as internet-based payment methods, might be
   exploited for illicit activity;
•	 Completed collaborative efforts with other FIUs, law enforcement agencies, and the
   intelligence community to take full advantage of financial intelligence sources and
   resources;
•	 Worked with Egmont Group partners to develop actionable intelligence concerning
   illicit money flows across the northern and southwestern borders of the U.S.;
•	 Provided greater and more sustained technical assistance and training to Egmont
   Group candidates under FinCEN’s sponsorship and to Egmont members whose
   organizational capabilities have been strained by growing needs to collect and analyze
   financial intelligence and to build the information technology infrastructure for these
   activities; and
•	 Supported the establishment of a permanent Egmont Group Secretariat with the
   appointment of the Executive Secretary and opening of a permanent office in Toronto
   July 3, 2007.

Some FY 2007 accomplishments related to the management, use, and accessibility of
BSA information were:
•	 Expanded access to BSA information to enable authorized law enforcement and
   regulatory users to quickly and efficiently query the data when needed;
•	 Conducted a feasibility analysis with the financial services industry and law
   enforcement to determine the benefits and costs to all affected parties as a part of a
   Congressionally mandated study of the feasibility of implementing a cross-border
   electronic funds transfer reporting requirement;
•	 Established a formal Data Issue Management process and framework and Data
   Management Council, including representatives from FinCEN and the IRS, to address
   BSA data quality issues in a consistent and repeatable fashion;
•	 Maintained the focus on promoting electronic filing of BSA reports as a way to
   enhance speed, economy, and data quality;
•	   Deployed disaster recovery capability for the BSA E-Filing system to ensure
     continuity of system operations for stakeholders in the event of a major outage;
•	   Launched FinCEN’s first enterprise-wide business transformation and IT
     modernization program, based on an effective collaboration of BSA stakeholders and
     a rigorous program management framework; and
•	   Established a new Program Management Office (PMO), which will create a
     disciplined environment in which proven project management principles, tools, and
     techniques will be consistently applied across the bureau’s major information
     technology initiatives to identify, manage, and mitigate risks.

FY 2007 Performance Measure Results

Summary of Performance Measures

 Performance Measures                                                        FY 2006   FY 2007     FY 2007
                                                                              Actual    Target      Actual
 Number of federal and state regulatory agencies with which FinCEN has         48         50         50
 concluded memoranda of understanding/information sharing agreements
 Percentage of Regulatory Resource Center customers rating the guidance       94%        90%        91%
 received as understandable
 Average time to process enforcement matters (years)                          1.0         1.0        1.1
 Percentage of bank examinations conducted by the Federal Banking Agencies    N/A      Establish    5.2%
 indicating a systemic failure of the anti-money laundering program rule.              Baseline
 Percentage of customers finding FinCEN’s analytic support highly valuable    77%        78%        82%
 Percentage of customers satisfied with BSA E-Filing                          92%        90%        94%

FinCEN continues to increase compliance activities to monitor financial institutions
examined for BSA compliance by state and federal regulators through entering into
memoranda of understanding (MOU) to exchange information. In 2007, FinCEN
executed two additional such agreements and has met its FY 2007 target of 50. MOUs
help ensure effective application of the BSA regulations across all regulated financial
service industries by providing a solid foundation for FinCEN to improve upon its ability
to monitor industry compliance by providing vital data on various industry sectors.

FinCEN conducted a survey of the Regulatory Resource Center customers asking them to
rate regulatory guidance received as understandable and met its target with 91 percent
satisfied. The target was to maintain at least a 90 percent level. Providing
understandable guidance to financial institutions is critical to their establishing anti-
money laundering programs that comply appropriately with the BSA.

FinCEN works closely with its regulatory partners to take enforcement action against
institutions that systemically and egregiously violate the provisions of the BSA, including
through imposition of civil monetary penalties in appropriate matters. Timely
enforcement action communicates urgency to financial institutions, and is paramount to
deterring non-compliance. In FY 2007, FinCEN experienced a slight increase in the
average processing time, exceeding the 1.0 year average by 21 days, resulting in an
average of 1.1 years. This was the result of two enforcement cases that closed in the
fourth quarter of FY 2007 after abnormally long periods of time. Each of those
enforcement actions was taken on a joint/concurrent basis with both the Department of
Justice and the respective financial supervisor(s), which also had to complete their
respective investigations. Moreover, the process of coordination with other interested
government authorities, which itself is a Departmental priority, will often require longer
time periods than unilateral actions. As such, the time periods of these two cases were
outliers, and FinCEN will reconsider in the future whether the processing time target is
appropriate for joint enforcement actions, as the timing of the announcement of these will
not necessarily reflect when FinCEN has completed its enforcement review.

As part of the 2006 Program Assessment Rating Tool (PART) process, FinCEN
established a measure for the percentage of bank examinations conducted by the Federal
Banking Agencies indicating a systemic failure of the anti-money laundering program
rule and established an FY 2007 baseline of 5.2%. Due to a three month time lag in data
availability, this result is based on three quarters of FY 2007 data. This measure provides
an assessment of the effectiveness of FinCEN’s efforts in providing policy guidance and
taking formal and informal compliance and enforcement actions to increase depository
institution compliance with the BSA.

FinCEN supports law enforcement and its regulatory industry partners by facilitating
information sharing and providing analyses of BSA information and measures the
percentage of customers finding FinCEN’s analytic reports highly valuable. FinCEN has
revised this measure as a result of the FY 2006 PART process to more accurately target
its disparate audiences as well as its different products. The reformulated measure more
closely ties to how BSA information is used by law enforcement, regulators and
international partners to identify, investigate, and prevent abuse of the financial system.
In FY 2007 FinCEN surpassed its target of 78 percent with 82 percent of its customers
finding the analytic products highly valuable.

FinCEN conducted a survey of the users of the BSA E-Filing system to determine the
overall satisfaction level and to identify where improvements are needed. FinCEN met
its target with 94 percent of respondents satisfied. The FY 2007 target was to maintain at
a least 90 percent satisfaction level. The information and the technology used to facilitate
analysis are at the core of FinCEN’s mission to deter and detect criminal activity, and
safeguard financial systems from abuse by promoting transparency in the U.S. and
international financial systems.

Future Outlook

FinCEN’s future plans will improve its ability to Strengthen International Financial
System Security and Enhance U.S. National Security. FinCEN’s priorities will be linked
to the following new bureau strategic goals for FY 2008 and forward:
  •	 Financial systems resistant to abuse by money launderers, terrorists and their 

     financial supporters, and other perpetrators of financial crime; 

  •	 Detection and deterrence of money laundering, terrorist financing, and other illicit
     activity; and
  •	 Enhanced management, use, and security of BSA information.
In support of the FinCEN strategic goal “Financial systems resistant to abuse by money
launderers, terrorists and their financial supporters, and other perpetrators of financial
crime,” FinCEN will:

   •	 Continue to develop additional memoranda of understanding to exchange 

      information with federal and state regulators, with a focus on insurance 

      commissioners; 

   •	 Continue to identify compliance trends and patterns across industries subject to the
      BSA and continue to publish, as appropriate, studies promoting greater awareness
      of emerging money laundering trends and vulnerabilities;
   •	 Continue efforts to overhaul BSA regulations for inclusion in a new Code of
      Federal Regulations chapter to provide greater clarity in regulations and make
      them easier for industry to follow, as well as more intuitive and responsive to
      industry feedback;
   •	 Continue efforts, in conjunction with the federal banking agencies, to match risk-
      based examination for BSA compliance with actual risks posed by products and
      services offered and customers and geographic locations served by banks;
   •	 Reduce any undue perception of excessive regulatory responsibilities by providing
      clarification to regulated industries regarding their BSA programmatic,
      recordkeeping, and reporting requirements;
   •	 Continue to take enforcement actions against financial institutions, as necessary,
      for willful violations of BSA requirements, including joint or concurrent actions
      with federal and state regulatory agencies; and
   •	 Expand coordination with law enforcement and other regulatory agencies to
      identify and educate unregistered and/or unlicensed money services businesses.

In support of the FinCEN strategic goal “Detection and deterrence of money laundering,
terrorist financing, and other illicit activity,” FinCEN will:

   •	 Improve the proactive evaluation, analysis and referral of potential terrorism and
      financial crimes related to SARs to the law enforcement and intelligence
      communities;
   •	 Expand capabilities and methodologies for geographic and industry threat 

      assessments and for financial analysis; 

   •	 Enhance the focus on transnational financial crimes, to include cross-border
      money flows, the South Florida region, and an annual threat/targeting assessment
      of the Southwest Border;
   •	 Increase the number of analyst exchanges with partner FIUs and expand the
      complexity of FinCEN products to better meet the needs of the bureau’s
      international partners; and
   •	 Increase outreach to U.S. law enforcement and regulatory agencies to educate
      them on the benefits provided by the global network of FIUs in terms of
      investigative and intelligence resources and information gathering.
In support of the FinCEN strategic goal “Enhanced management, use, and accessibility of
BSA information,” and through the IT Modernization program, FinCEN will:

   •	 Continue deployment of a disaster recovery capability for critical systems to
      minimize or eliminate system downtime in the event of the loss of access or
      system use at FinCEN’s primary location;
   •	 Pending final approval by the Secretary of the Treasury, begin development of the
      technological systems required to receive, securely store, analyze and disseminate
      cross-border wire transfer data, if a final decision is made by Treasury to proceed;
      and
   •	 Enhance project management capability and oversight of information technology
      projects by expanding Capital Investment Planning, Enterprise Architecture,
      Configuration Management, and Change Management controls;

FY 2007 Financial Statement Highlights

Highlights of FinCEN’s FY 2007 financial performance appear below. FinCEN is
financed annually through appropriations authorized by Congress. The FY 2007 enacted
budget is $73 million. Total assets were $42 and $55 million and total liabilities were
$14 and $20 million at the end of FYs 2007 and 2006, respectively.

Assets: FinCEN’s total assets as of September 30, 2007 and 2006, were $42 and $55
million, respectively, of which approximately 64% consists of the fund balance with the
Treasury in 2007 and 59% in 2006. Total assets decreased by $13 million, $7 million of
which is due to the write off of equipment, software and labor associated with the
cancellation of the BSA Direct Data Retrieval and Sharing Project. There was a $2.5
million decrease in accounts receivable. This is due to the collection of one receivable in
the amount of $1 million and the establishment of an allowance for another debt of $1.5
million which is deemed uncollectible. There was a decrease in the fund balance with
Treasury of $5.9 million which was primarily due to payment of rents due to GSA which
were finally billed and paid in FY 2007.

Liabilities: Total liabilities were $14 and $20 million, respectively at September 30,
2007 and 2006. Intra-governmental liabilities totaled $7 million. The decrease in total
liabilities in FY 2007 over FY 2006 is due to the $6 million reduction of
Intragovernmental liabilities. The major component of this amount is the more timely
billing of rent by GSA. This has made it unnecessary for FinCEN to record accounts
payable with GSA for the $4 million in rent that was accrued at the end of fiscal year
2006. The remaining $2 million is due mainly to the payment of all amounts due to the
General Fund of the Treasury in FY 2007 which made it unnecessary for FinCEN to
record an Intragovernmental liability for amounts due to the General Fund.

Net Cost of Operations: The net cost of FinCEN operations totaled $106 million for the
year ended September 30, 2007 and $101 million for the year ended September 30, 2006,
an increase of 4.5%. All of FinCEN’s costs are reported under the Department of the
Treasury’s Strategic Goal 3: Preserve the Integrity of Financial Systems. FinCEN
discloses its net cost by its own Strategic Goals on the face of the financial statements.
The majority of FinCEN’s costs ($50 million or 47%) relate to FinCEN’s goal of
facilitating compliance, data management and information sharing through e-
Government.

Custodial Revenue: Total net revenue collected by FinCEN on behalf of the federal
government consists mainly of civil monetary penalties. These penalties are assessed
against businesses or individual who do not comply with the reporting and disclosure
requirements of the Bank Secrecy Act. In fiscal year 2007 FinCEN assessed and
collected 2 large civil monetary penalties for approximately $12 million. In fiscal year
2006 there were $2.5 million in civil monetary penalties assessed.

Systems and Internal Controls

FinCEN’s investment review board meets routinely to monitor ongoing IT projects and
review proposed capital investments. Financial management systems are in compliance
with Federal financial systems standards, Federal Manager’s Financial Integrity Act
(FMFIA) Section 4 and Federal Financial Management Improvement Act (FFMIA).
FinCEN relies on the Bureau of Public Debt (BPD) Administrative Resource Center
(ARC) for administrative and accounting services, and uses their systems.

FinCEN completed a review of the Employee Separation Process in fiscal year
2007. The purpose of the review was to determine if appropriate controls were in place
to ensure all government furnished equipment is returned and accounted for prior to an
FTE or contractor departing FinCEN employment. Interviewed staff in applicable
offices, developed a report of findings and recommendations, which included drafting
revisions to the FinCEN Directive, Fin015, and the Exit Checklist.

FinCEN also completed a review of the receiving process used for goods and equipment.
The purpose of the review was to strengthen and document FinCEN’s receipt of goods
and equipment to ensure accurate documentation of the receipt status. This review
partially stemmed from the FY 2005 financial audit report of a material weakness
requiring FinCEN to record the accrued liabilities at a transaction level. To meet the
intent of this recommendation, the Office of Financial Management wants to improve the
processes for documenting the receipt of goods and services to improve the related
accounting processes. FinCEN is in the process of finalizing the review report and
implementing the recommendations.


Improper Payment Improvement Act (IPIA) Reporting

Background: The Improper Payments Information Act of 2002 (IPIA) requires agencies
to review their programs and activities to identify those that are susceptible to significant
erroneous payments. “Significant” means that an estimated error rate and a dollar amount
exceed the threshold of 2.5% and $10 million of total program funding.
Risk Assessment Methodology: As a bureau of the Department of the Treasury, FinCEN
follows the methodology and guidance prescribed by the Department. Each year, a
comprehensive inventory of the funding sources for all programs and activities is
developed. If program or activity funding is at least $10 million, Risk Assessments are
required at the payment type level (e.g., payroll, contracts, vendors, travel, etc.). For
those payment types resulting in high risk assessments that comprise at least 2.5% and
$10 million of a total funding source, (1) statistical sampling must be performed to
determine the actual improper payment rate, and (2) if erroneous payments exceed $10
million, a Corrective Action Plan to reduce erroneous payments must be developed and
submitted to the Office of Management and Budget for approval.

Results for FY 2007: All of FinCEN’s programs and activities resulted in low risk
susceptibility for improper payments.

Other Information/Issues

There are two audits that were completed in FY 2007, one by Treasury’s Office of the
Inspector General (OIG) and one by the Government Accountability Office (GAO). The
first, the OIG’s audit of FinCEN's 2006 financial statements, footnotes and related
disclosures resulted in an unqualified opinion. The second, by GAO, focused on the
coordination of BSA compliance and data management efforts between FinCEN and
IRS. GAO recommended that FinCEN and IRS develop a coordinated strategy to better
identify and select non-bank financial institutions for examination; the strategy is in the
draft stage, and should be finalized during the first quarter of FY 2008.

Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and
results of operations of FinCEN. While the statements have been prepared from the books
and records of FinCEN in accordance with GAAP for Federal entities and the formats
prescribed by OMB, the statements are in addition to the financial reports used to monitor
and control budgetary resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the
U.S. Government, a sovereign entity.
THIS PAGE INTENTIONALLY LEFT BLANK 

                        United States Department of the Treasury 

                        Financial Crimes Enforcement Network 

                                     Balance Sheets 


                                                                        As of September 30
                                                                 2007                         2006

ASSETS (Note 2)
Intragovernmental:
    Fund balance with Treasury (Note 3)                      $26,747,399                $32,611,997
    Accounts receivable (Note 4)                                 117,179                     55,680
    Other (Note 6)                                             2,189,308                    488,615
Total intragovernmental                                       29,053,886                 33,156,292

   Accounts receivable, net (Note 4)                               5,392                  2,517,053
   Property and equipment, net (Note 5)                       12,701,297                 19,793,852
Total assets                                                 $41,760,575                $55,467,197

LIABILITIES (Note 7)
Intragovernmental:
    Accounts payable                                           3,985,945                     7,151,258
    Other (Note 8)                                             2,760,079                     5,636,939
Total intragovernmental                                        6,746,024                    12,788,197

   Accounts payable                                            4,317,323                     3,764,483
   Other (Note 8)                                              3,381,775                     3,349,330
Total liabilities                                             14,445,122                    19,902,010

Commitments and Contingencies (Notes 9 and 10)

NET POSITION
   Unexpended appropriations                                  19,374,601                 20,879,843
   Cumulative results of operations                            7,940,852                 14,685,344
Total net position                                            27,315,453                 35,565,187
Total liabilities and net position                           $41,760,575                $55,467,197




               The accompanying notes are an integral part of these financial statements.
                         United States Department of the Treasury 

                          Financial Crimes Enforcement Network 

                                  Statements of Net Cost 


                                                          For the Years Ended September 30
PROGRAM COSTS (Note 11)                                    2007                     2006
Protect the financial system:
   Gross costs                                           $27,541,463                  $24,866,917
   Less: earned revenue                                    (363,217)                     (297,424)
Net program costs                                         27,178,246                   24,569,493

Combat terrorism, money laundering, and other
financial crime:
    Gross costs                                           25,282,203                   20,859,439
    Less: earned revenue                                    (333,422)                    (249,492)
Net program costs                                         24,948,781                   20,609,947

Intensify international anti-money laundering
collaboration:
    Gross costs                                            3,335,099                       4,521,257
    Less: earned revenue                                     (43,983)                        (54,077)
Net program costs                                          3,291,116                       4,467,180

Facilitate compliance, data management, and
information sharing through e-Government:
    Gross costs                                           51,425,077                   52,508,242
    Less: earned revenue                                    (678,194)                    (628,032)
Net program costs                                         50,746,883                   51,880,210

Net cost of operations                                  $106,165,026                 $101,526,830 





              The accompanying notes are an integral part of these financial statements.
                        United States Department of the Treasury 

                         Financial Crimes Enforcement Network 

                          Statements of Changes in Net Position 


                                                           For the Years Ended September 30
                                                            2007                     2006
Cumulative Results of Operations:
  Beginning balances                                      $14,685,344                  $12,402,855

Budgetary financing sources:
   Appropriations used                                     74,482,105                   75,362,696


Other financing sources (non-exchange):
   Transfers in/out without reimbursement                            -                      2,300,000
   Imputed financing from costs absorbed by
        others (Note 14)                                   24,938,429                   26,146,623
Total financing sources                                    99,420,534                  103,809,319

Net cost of operations (Note 11)                          (106,165,026)               (101,526,830)
Net change                                                 (6,744,492)                   2,282,489

Cumulative results of operations                          $7,940,852                   $14,685,344

Unexpended appropriations:
  Beginning balance                                       $20,879,843                  $23,917,882

Budgetary financing sources:
   Appropriations received
                                73,216,364                   73,630,000
   Appropriations transferred in/out
                          225,000
   Other adjustments
                                         (464,501)                 (1,305,343)
   Appropriations used
                                   (74,482,105)                 (75,362,696)
Total budgetary financing sources                          (1,505,242)                  (3,038,039)

Total unexpended appropriations                            19,374,601                   20,879,843

Net position                                              $27,315,453                  $35,565,187




               The accompanying notes are an integral part of these financial statements.
                        United States Department of the Treasury 

                         Financial Crimes Enforcement Network 

                           Statements of Budgetary Resources


                                                          For the Years Ended September 30
                                                            2007                    2006
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1          $13,170,510                   $8,991,088
Recoveries of prior year unpaid obligations (Note 12)      1,083,210                    2,800,592
Budget authority:
   Appropriations                                         73,216,364                   73,630,000
   Spending authority from offsetting collections:
       Earned
          Collected                                        1,357,315                    3,564,095
          Change in receivables from Federal sources          61,500                       12,761
       Change in unfilled customer orders
          Without advance from Federal sources               507,984                     (12,081)
   Subtotal                                               75,143,163                   77,194,775
Non-expenditure transfers, net: anticipated and actual       225,000                            -
Permanently not available (Note 12)                         (464,501)                  (1,305,343)
Total budgetary resources                                $89,157,382                  $87,681,112

STATUS OF BUDGETARY RESOURCES
Obligations incurred (Note 12):
   Direct     
                                          $75,962,067                  $70,936,071
   Reimbursable      
                                     1,976,572                    3,574,531
   Subtotal                                               77,938,639                   74,510,602
Unobligated balance:
   Apportioned                                             7,553,962                   10,079,577
Unobligated balance not available                          3,664,781                    3,090,933
Total status of budgetary resources                      $89,157,382                  $87,681,112 



                                                                        (Continued)
                        United States Department of the Treasury 

                         Financial Crimes Enforcement Network 

                           Statements of Budgetary Resources


                                                               For the Years Ended September 30
                                                                 2007                    2006
CHANGE IN OBLIGATED BALANCE
Obligated balance, net:
   Unpaid obligations brought forward, October 1             $19,566,426                    $23,066,399
   Less: Uncollected customer payments from Federal
       sources, brought forward, October 1                       (124,939)                     (124,259)
Total unpaid obligated balance, net                            19,441,487                    22,942,140
Obligations incurred, net                                     (77,938,639)                  (74,510,602)
Less: Gross outlays                                           (80,198,776)                  (75,209,984)
Less: Recoveries of prior year unpaid obligations, actual      (1,083,210)                   (2,800,592)
Change in uncollected customer payments from Federal
   sources                                                       (569,484)                         (680)
Obligated balance, net, end of period:
   Unpaid obligations                                         16,223,079                     19,566,426
   Less: Uncollected customer payments from Federal
       Sources                                                  (694,423)                      (124,939)
Total, unpaid obligated balance, net, end of period          $15,528,656                    $19,441,487

NET OUTLAYS
   Gross outlays
                                            $80,198,776                    $75,209,984
   Less: Offsetting collections 
                             (1,357,315)                    (3,564,095)
   Less: Distributed offsetting receipts 
                         (3,440)                       (2,338)
Net outlays                                                  $78,838,021                    $71,643,551




               The accompanying notes are an integral part of these financial statements.
                        United States Department of the Treasury 

                         Financial Crimes Enforcement Network 

                            Statements of Custodial Activity


                                                                For the Years Ended September 30
                                                                    2007                 2006
Revenue activity (Note 13):
   Sources of cash collections:
       Civil monetary penalties                                  $13,461,367                $1,437,338
   Total cash collections                                         13,461,367                 1,437,338
   Accrual adjustments                                             (2,497,179)               2,500,000
Total custodial revenue                                           10,964,188                 3,937,338

Disposition of collections:
   Transferred to others:
       Department of the Treasury                                (13,461,367)               (1,437,338)
       Decrease/(Increase) in amounts yet to be transferred        2,497,179                (2,500,000)
Net custodial activity                                                  $ -                        $ -




               The accompanying notes are an integral part of these financial statements.
                      United States Department of the Treasury 

                       Financial Crimes Enforcement Network 

                          Notes to the Financial Statements 

                  For the Years Ended September 30, 2007 and 2006 




NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

Reporting Entity
The Financial Crimes Enforcement Network (FinCEN) was formally established by the Department
of the Treasury (Treasury), Order 105-08, on April 25, 1990 and upgraded to bureau status October
26, 2001 in Public Law 107-56. The mission of FinCEN is to safeguard the financial system from
the abuses of financial crime, including terrorist financing, money laundering, and other illicit
activity. This is accomplished primarily through the administration of the Bank Secrecy Act;
supporting law enforcement, intelligence, and regulatory agencies through sharing and analysis of
financial intelligence; building global cooperation with our counterpart financial intelligence units;
and networking people, ideas, and information. To achieve our strategic plan, we have established
the following Strategic Goals: Protect the financial system through effective administration of the
Bank Secrecy Act; Combat terrorism, money laundering and other financial crime through analysis
of the Bank Secrecy Act data and other relevant information; Intensify international anti-money
laundering collaboration through the global network of Financial Intelligence Units; and Facilitate
regulatory compliance, data management and information sharing through electronic government.

Basis of Accounting and Presentation
The financial statements have been prepared from FinCEN’s accounting records in conformity with
accounting principles generally accepted in the United States of America. Accounting principles
generally accepted for Federal entities are the standards prescribed by the Federal Accounting
Standards Advisory Board (FASAB). FASAB is recognized by the American Institute of Certified
Public Accountants as the official accounting standards-setting body of the United States
Government.

These financial statements are provided to meet the requirements of the Government Management
Reform Act of 1994. The financial statements consist of a balance sheet, and the statements of net
costs, changes in net position, budgetary resources and custodial activity. The financial statements
and the related notes are presented on a comparative basis providing information for fiscal years
2007 and 2006.

FinCEN’s financial statements with respect to the balance sheet, the statement of net cost, and the
statement of changes in net position are reported using the accrual basis of accounting. Under the
accrual method, revenues are recognized when earned and expenses are recognized when a liability
is incurred without regard to receipt or payment of cash. FinCEN’s statement of budgetary resources
is reported using the budgetary basis of accounting. Budgetary accounting facilitates compliance
with legal constraints and controls over the use of federal funds. It generally differs from the accrual
basis of accounting in that obligations are recognized when new orders are placed, contracts


                                               1                                               

awarded, and services received, that will require payments during the same or future periods.
FinCEN’s non-entity revenues are reported on the statement of custodial activity using a modified
accrual basis of accounting. With this method, revenue from cash collections are reported separately
from receivable accruals, and cash disbursements are reported separately from payable accruals.

Intragovernmental assets and liabilities result from activity with other Federal agencies. All other
assets and liabilities result from activity with parties outside the Federal government, such as
domestic and foreign persons, organizations, or governments. Intragovernmental earned revenues are
collections or accruals of revenue from other Federal agencies, and intragovernmental costs are
payments or accruals to other Federal agencies.

While these financial statements have been prepared from the books and records of FinCEN, these
financial statements are in addition to the financial reports used to monitor and control budgetary
resources which are prepared from the same books and records.

Earmarked Funds within the Department of Treasury appropriations include any funds financed by
specifically identified revenues and other financing sources that are required by statute to be used for
designated activities, benefits or purposes; which remain available over time to finance designated
activities, benefits, or purposes; and which must be accounted for separately from the Treasury’s
general funds. Management has determined that FinCEN receipts do not meet the definition of
earmarked funds as defined by Statement of Federal Financial Accounting Standards No. 27,
“Identifying and Reporting Earmarked Funds.”

These financial statements should be read with the realization that they are for a component of a
sovereign entity, that liabilities not covered by budgetary resources cannot be liquidated without the
enactment of an appropriation, and that the payment of all liabilities other than for contracts can be
abrogated by the sovereign entity.

Fund Balance with Treasury
FinCEN does not maintain cash in commercial bank accounts. The Treasury processes cash receipts
and disbursements. Fund balance with Treasury is composed of appropriated and trust funds that are
available to pay current liabilities and finance authorized purchase commitments.

Accounts Receivable
Accounts receivable represent amounts owed to FinCEN by other Federal agencies and the public.
Intragovernmental accounts receivable represent amounts due from other Federal agencies under
contractual agreements or other arrangements for services or activities performed by FinCEN.
These receivables are expected to be fully collected.

Public accounts receivable consist of administrative receivables from employees or suppliers and the
levy of civil monetary penalties from non-Federal sources resulting from FinCEN’s regulatory
responsibilities. Public accounts receivable are presented net of an allowance for doubtful accounts,
which is determined by considering the debtor’s current ability to pay, the debtor’s payment record
and willingness to pay, and an analysis of aged receivable activity.




                                               2                                               

Property and Equipment
Property and equipment is recorded at cost and is depreciated using the straight line method over the
estimated useful lives of the assets. FinCEN capitalizes property and equipment with an acquisition
value of $25,000 or greater, and a useful life of two years or greater. FinCEN also capitalizes bulk
acquisitions of like-kind property and equipment items that are individually valued under the
capitalization threshold but are, in the aggregate, significant to FinCEN’s financial position or
results of operations.

Internal-use software includes purchased commercial off-the-shelf software (COTS), contractor
developed software, and software that was internally developed by agency employees. For COTS
software, the capitalized costs include the amount paid to the vendor for the software, for contractor
developed software it includes the amount paid to a contractor to design, program, install and
implement the software. Capitalized costs for internally developed software include the full cost
(direct and indirect) incurred during the software development phase.

Major alterations and renovations that increase an asset’s useful life are capitalized, while normal
maintenance and repair costs are charged to expense as incurred. Upon legal transfer, donation, or
approval for disposal of property and equipment, the value of the related asset and corresponding
accumulated depreciation is removed.

Leasehold improvements are amortized over the shorter of the term of the remaining portion of the
lease, or the useful life of the improvement. Amortization of capitalized software begins on the date
the software is placed in production (i.e., successfully installed and tested).

Equipment that is to be constructed is recorded as construction-in-progress until completed and is
valued at actual costs. Construction-in-progress assets are not depreciated until completed and
placed in service.

Liabilities
Liabilities represent the probable and measurable future outflow or other sacrifice of resources as a
result of past transactions or events. Since FinCEN is a component of the United States government,
a sovereign entity, FinCEN’s liabilities cannot be liquidated without legislation that provides
resources or an appropriation. Liabilities covered by budgetary resources are those liabilities for
which Congress has appropriated funds or funding is otherwise available to pay amounts due.
Liabilities not covered by budgetary or other resources represent amounts owed in excess of
available, congressionally appropriated funds or other amounts, and there is no certainty that the
appropriations will be enacted. The United States government, acting in its sovereign capacity, can
abrogate liabilities of FinCEN arising from other than contracts.

Annual, Sick and Other Leave
Annual leave is accrued as a liability when earned, and the accrual is reduced as leave is taken. The
balance in the accrued annual leave account reflects current pay rates and leave balances, and is
reported within other liabilities in the accompanying Balance Sheet. Sick leave and other types of
non-vested leave are charged to operating costs as the leave is taken.




                                              3                                               

Workers’ Compensation
A liability is recorded for actual and estimated future payments to be made for workers’
compensation pursuant to the Federal Employees’ Compensation Act (FECA). The actual liability is
presented as a component of intragovernmental other liabilities, and the actuarial liability is
presented within other liabilities in the accompanying Balance Sheet.

FECA provides income and medical cost protection to covered Federal civilian employees injured
on the job, employees who have incurred work-related occupational diseases and beneficiaries of
employees whose death is attributable to a job-related injury or occupational disease. Claims
incurred for benefits to employees are administered by the U.S. Department of Labor (DOL) which
initially pays valid claims and subsequently seeks reimbursement from the Federal agencies
employing the claimants. Reimbursement to DOL occurs approximately two years subsequent to the
actual disbursement to the claimant. Budgetary resources for this intragovernmental liability are
made available to FinCEN as part of its annual appropriation from Congress in the year in which the
reimbursement takes place.

Future workers’ compensation estimates are generated by DOL from an application of actuarial
procedures developed to estimate the liability for FECA benefits. The actuarial liability for future
workers’ compensation benefits includes the expected liability for death, disability, medical and
miscellaneous costs for approved compensation cases, plus a component for incurred but not
reported claims. The liability is determined using a method that utilizes historical benefit payment
patterns related to a specific incurred period to predict the ultimate payments related to that period.
Based on information provided by the DOL, Treasury allocates the overall Treasury liability to
Treasury components based on prior claims payment experience. The accrued liability is not covered
by budgetary resources and will require future funding.

Unamortized Rent Abatement
The terms of the operating lease between FinCEN and the General Services Administration (GSA)
for the Vienna, VA facility contains a rent abatement period. During the rent abatement period no
rent is payable to GSA. Rent payments commenced in fiscal year 2006, however, FinCEN is
recognizing rent expense on a straight-line basis over the lease term. Accordingly, an unamortized
rent abatement liability is included in other intragovernmental liabilities in the accompanying
Balance Sheet. This liability is being amortized on a straight-line basis over the lease term.

Pension Costs and Other Retirement Benefits
Most FinCEN employees hired prior to January 1, 1984 participate in the Civil Service Retirement
System (CSRS). As of September 30, 2007 and 2006, FinCEN contributed 7 percent of base pay for
regular employees.

Employees hired after December 31, 1983 are automatically covered by the Federal Employee’s
Retirement System (FERS) and Social Security. As of September 30, 2007 and 2006, FinCEN
contributed 11.2 percent of base pay for the FERS basic benefit. A primary feature of FERS is that it
offers a savings plan to which FinCEN automatically contributes 1 percent of base pay and matches
employee contributions up to an additional 4 percent of base pay. FinCEN also contributes the
employer’s Social Security matching share for FERS participants.



                                              4                                                

FinCEN is not responsible for administering either CSRS or FERS. Therefore, FinCEN does not
report CSRS or FERS assets, accumulated plan benefits or unfunded liabilities, if any, applicable to
FinCEN employees. Reporting such amounts is the responsibility of the Office of Personnel
Management (OPM).

Similar to CSRS and FERS, OPM, rather than FinCEN, reports the liability for future payments to
retired employees who participate in the Federal Employees Health Benefits Program (FEHBP) and
the Federal Employees Group Life Insurance Program (FEGLI). FinCEN does not contribute funds
for the cost to provide health benefits and life insurance to its retirees.

The estimated cost of providing CSRS and FERS retirement and FEHBP and FEGLI benefits to
retirees is more than the amounts contributed by FinCEN and its employees. Federal entities are
required to report the full cost of providing retirement benefits to include the cost financed by OPM.
The additional expense representing the difference between the estimated cost and the employer and
employee contributions for these programs is included as an expense and as an imputed financing
source in FinCEN’s financial statements.

Entity Revenues, Financing Sources and Imputed Financing Sources
FinCEN receives the majority of funding needed to support its programs through Congressional
appropriations. Additional funding is obtained through exchange revenues.

Appropriations are recognized as a financing source at the time the expenses are incurred or assets
are purchased. Exchange revenue from reimbursable agreements is recognized when earned (i.e.,
goods have been delivered or services rendered). Reimbursable work between Federal
appropriations is subject to the Economy Act (31 U.S.C. 1535) or other statutes authorizing
reimbursement. Prices for goods and services sold to other Federal agencies are generally limited to
the recovery of actual costs. FinCEN recognizes as an imputed financing source the amount of
pension and post-retirement benefit expense for current employees paid on behalf of FinCEN by the
OPM, as well as amounts paid from the Department of Treasury Judgment Fund in settlement of
claims, legal settlements, or court assessments. When costs that are identifiable to FinCEN and
directly attributable to FinCEN’s operations are paid for by other agencies, FinCEN recognizes these
amounts as imputed costs and financing sources.

Imputed intradepartmental costs represent the un-reimbursed portion of the full costs of goods and
services received by FinCEN from a providing bureau that is part of Treasury. FinCEN identifies
intra-entity costs that meet the criteria for recognition (i.e. materiality, significance to the entity,
directness of the relationship to entity operations, identifiably) that are not fully reimbursed and
recognizes them as operating expenses and an imputed financing source.

Non-Entity Assets, Revenues and Disbursements
Non-entity assets are those held by FinCEN that are not available for use by FinCEN. Non-entity
accounts receivable reported on FinCEN’s Balance Sheet and non-entity revenue reported on
FinCEN’s Statement of Custodial Activity includes civil monetary penalties. Civil monetary
penalties represent amounts assessed on or collected from non-Federal sources for violations of laws
and regulations under FinCEN’s regulatory responsibility.



                                               5                                               

Non-entity accounts receivable, custodial revenue and disposition of revenue is recognized when
FinCEN is entitled to collect civil monetary penalties on behalf of the Federal government that have
been established as a legally enforceable claim and collection is probable. Proceeds from the civil
monetary penalty assessments are ultimately deposited in the Treasury General Fund based on
established laws and regulations. These funds are not available to fund FinCEN’s operating
activities and accordingly, an offsetting liability due to the Treasury General Fund is recorded for
amounts recognized as non-entity accounts receivable.

Non-entity accounts receivable are presented net of amounts deemed uncollectible. An allowance for
doubtful accounts is established based on an assessment of the debtor’s current ability to pay, the
debtor’s payment record and willingness to pay, and an analysis of aged receivable activity.

Use of Estimates
The preparation of the financial statements in accordance with generally accepted accounting
principles requires management to make estimates and assumptions that affect the reported amounts
of assets and liabilities, the disclosure of contingencies at the date of the financial statements, and
the reported amounts of revenue and expenses during the reporting period. Actual results may differ
from those estimates. FinCEN’s accounts payable at year end are based on significant estimates.

Tax Status
FinCEN, as a Federal agency, is not subject to Federal, state, or local income taxes and, accordingly,
no provision for income taxes has been recorded in the accompanying financial statements.

NOTE 2. NON-ENTITY ASSETS

Non-entity assets as of September 30, 2007 and 2006 consisted of the following:

                                                     2007                         2006
Civil penalties assessed                          $ 1,500,000                 $ 3,200,000
Custodial account receivable                            2,821                           -
Less allowance for doubtful collection             (1,500,000)                   (700,000)
          Total non-entity assets                       2,821                   2,500,000
Total entity assets                                41,757,754                  52,967,197
          Total assets                            $41,760,575                 $55,467,197

Non-entity accounts receivable represents civil monetary penalties due from non-Federal sources
for violations of laws or regulations under FinCEN’s regulatory responsibility.

The total non-entity assets are offset on the balance sheet by the custodial liability Due to the
Treasury General Fund. The amount Due to the Treasury General Fund is included in the
intragovernmental other liabilities balance shown in note 8.




                                              6                                                

NOTE 3. FUND BALANCE WITH TREASURY

Fund Balances:
Fund balance with Treasury as of September 30, 2007 and 2006 consisted of the following
components:

                                                     2007                      2006

Trust funds                                         $149,628                  $156,470
Appropriated funds                                26,597,771                32,455,527
Total                                            $26,747,399               $32,611,997

Trust funds consist of a violent crime reduction expenditure account that is designated by law as a
trust fund. Receipts in this account are used for law enforcement related information technology
projects.

Appropriated funds consist of amounts appropriated annually by Congress to fund the operations of
FinCEN.

Status of Fund Balances:
The status of fund balance with Treasury as of September 30, 2007 and 2006 consisted of the
following:

                                                     2007                      2006
Unobligated balance:
   Available                                      $7,553,962               $10,079,577
   Unavailable                                     3,664,781                 3,090,933
Obligated balance not yet disbursed               15,528,656                19,441,487

Total                                            $26,747,399               $32,611,997

The unobligated balance unavailable represents amounts appropriated in prior fiscal years that are
not available to fund new obligations, but may be used to adjust obligations and disbursements that
were recorded before the budgetary authority expired or to meet a bona fide need that arose in the
fiscal year for which the appropriation was made.

The obligated balance not yet disbursed represents amounts designated for payment of goods and
services ordered but not received, or goods and services received but for which payment has not yet
been made.




                                             7                                             

NOTE 4. ACCOUNTS RECEIVABLE, NET

Components of accounts receivable as of September 30, 2007 and 2006, were as follows:

                                                    2007                      2006
Intragovernmental:
   Accounts receivable                             $117,179                    $55,680
Public:
   Accounts receivable                                5,392                     17,053
   Civil penalties assessed                       1,500,000                  3,200,000
   Less allowance for doubtful collection        (1,500,000)                  (700,000)
   Public accounts receivable, net                    5,392                  2,517,053
Total accounts receivable, net                     $122,571                 $2,572,733

Intragovernmental accounts receivable arise generally from the provision of goods and services to
other Federal agencies.

Accounts receivable from non-Federal sources consist of administrative receivables from employees
or suppliers and civil monetary penalties which have been billed or accrued and remain uncollected
as of year-end. The collection of civil monetary penalties is a custodial activity performed by
FinCEN. An allowance for doubtful accounts of $1,500,000 has been recognized to offset a civil
monetary penalty that was referred to Debt Management Operations within the Financial
Management Service.




                                            8                                             

NOTE 5. PROPERTY AND EQUIPMENT, NET

Property and equipment as of September 30, 2007 and 2006 consisted of the following:

                                                                           2007
                                            Useful
                                             Life                      Accumulated           Net
                           Depreciation      (In       Acquisition     Depreciation/        Book
                             Method         years)        Cost         Amortization         Value

Furniture, fixtures and
    equipment                  S/L           5-7       $8,241,891      ($4,089,171)      $4,152,720
Construction in
    progress                   N/A           N/A        1,379,204                -         1,379,204
Internal-use software          S/L            5        10,152,489       (7,488,342)        2,664,147
Internal-use software in
    development                N/A           N/A         4,473,584                 -       4,473,584
Leasehold
    improvements               S/L           3-5          601,829         (570,187)          31,642
Total                                                 $24,848,997     ($12,147,700)     $12,701,297

                                                                           2006
                                            Useful
                                             Life                      Accumulated           Net
                           Depreciation      (In       Acquisition     Depreciation/        Book
                             Method         years)        Cost         Amortization         Value

Furniture, fixtures and
    equipment                  S/L           5-7       $6,397,590      ($3,258,448)      $3,139,142
Construction in
    progress                   N/A           N/A           330,846               -           330,846
Internal-use software          S/L            5          9,791,668      (5,649,499)        4,142,169
Internal-use software in
    development                N/A           N/A       12,034,916                  -     12,034,916
Leasehold
    improvements               S/L           3-5          705,960         (559,181)         146,779
Total                                                 $29,260,980      ($9,467,128)     $19,793,852

Construction-in-progress represents equipment that has been received but has not yet been
constructed and placed into operation.

Internal-use software in development represents actual (direct) costs and other indirect costs incurred
for various software development projects not yet placed in service. The indirect costs consist of the


                                              9                                                

applied overhead on FinCEN employee labor associated with the software in development.
Depreciation and amortization expense recognized during the year ended September 30, 2007 and
2006 was $2,713,477 and $2,480,749, respectively.

On July 13, 2006 FinCEN permanently halted the BSA Direct Data Retrieval and Sharing
Component (BSA Direct R&S) project. FinCEN wrote off $5.1 million in fiscal year 2006 related to
this project which decreased the property, plant and equipment balance reported on the balance sheet
and increased the expenses reported in the statement of net cost. This amount includes both
hardware and software and the associated labor. Additional items were identified during fiscal year
2007 that were not considered usable in the course of FinCEN’s activities. The total amount that
was written off in fiscal year 2007 was $7.1 million, of which approximately $638 thousand are
items that are in use but do not meet FinCEN’s capitalization threshold. This write off decreased the
property, plant and equipment balance reported on the balance sheet and increased the expenses
reported in the statement of net cost. The remaining $4.0 million worth of capitalized equipment was
reclassified from this project to other projects within FinCEN.

NOTE 6. OTHER ASSETS

Other assets as of September 30, 2007 and 2006 consisted of the following:

                                                      2007                       2006
Intragovernmental:
   Advances and prepayments                        $2,189,308                   $488,615
Total other assets                                 $2,189,308                   $488,615

Intragovernmental advances and prepayments consist of amounts paid to the Department of the
Treasury Working Capital Fund prior to FinCEN’s receipt of goods and services.




                                             10                                              

NOTE 7. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

Liabilities not covered by budgetary resources represent amounts owed in excess of available
appropriated or other amounts. The liquidation of liabilities not covered by budgetary resources is
dependent on future congressional appropriations. The September 30, 2007 and 2006 liabilities not
covered by budgetary resources consisted of the following:

                                                                2007                    2006
Intragovernmental:
    Accrued workers’ compensation                                $5,262                   $1,167
    Unamortized rent abatement                                2,509,246                2,880,986
              Total intragovernmental                         2,514,508                2,882,153
Public:
    Accrued annual leave                                      2,209,877                2,199,003
    Actuarial liability for workers’ compensation                32,980                   41,055
              Total public                                    2,242,857                2,240,058
Total liabilities not covered by budgetary resources          4,757,365                5,122,211
Total liabilities covered by budgetary resources or
    non-entity assets                                         9,687,757              14,779,799
              Total liabilities                             $14,445,122             $19,902,010

NOTE 8. OTHER LIABILITIES

Other liabilities as of September 30, 2007 and 2006 consisted of the following:

                                                                   2007
                                            Non-Current           Current              Total
Intragovernmental:
  Due to Treasury General Fund                       $-              $2,821             $2,821
  Due to other Federal agencies                       -               1,652              1,652
  Accrued employee benefits                           -             241,098            241,098
  Accrued workers’ compensation                   4,942                 320              5,262
  Unamortized rent abatement                  2,137,506             371,740          2,509,246
Total intragovernmental                       2,142,448             617,631          2,760,079

Public:
  Accrued payroll and employee                          -         1,138,919          1,138,919
benefits
  Accrued annual leave                                  -         2,209,876          2,209,876
  Actuarial liability for workers’
    compensation                                 32,980                   -             32,980
Total public                                     32,980           3,348,795          3,381,775
Total other liabilities                      $2,175,428          $3,966,426         $6,141,854


                                            11                                             

                                                                 2006 

                                           Non-Current          Current             Total
Intragovernmental:
  Due to Treasury General Fund                      $-         $2,500,000        $2,500,000
  Due to other Federal agencies                      -                  -                 -
  Accrued employee benefits                          -            254,786           254,786
  Accrued workers’ compensation                    320                847             1,167
  Unamortized rent abatement                 2,509,246            371,740         2,880,986
Total intragovernmental                      2,509,566          3,127,373         5,636,939

Public:
  Accrued payroll and employee                         -        1,109,272          1,109,272
benefits
  Accrued annual leave                                 -        2,199,003          2,199,003
  Actuarial liability for workers’
    compensation                                41,055                  -            41,055
Total public                                    41,055          3,308,275         3,349,330
Total other liabilities                     $2,550,301         $6,435,648        $8,986,269

Amounts due to other agencies include payroll collections received for employees of those
agencies.

NOTE 9. LEASES

FinCEN leases office space from the General Services Administration (GSA) under long-term
occupancy agreements. All of the office space occupied by FinCEN is leased by GSA from
commercial sources. GSA space is assigned to FinCEN based upon current needs. FinCEN is not
committed to continue to pay rent to GSA beyond the period occupied providing proper advance
notice to GSA is made. However, it is expected that FinCEN will continue to occupy and lease
office space from GSA in future years. The lease amount paid to GSA during fiscal years 2007 and
2006 was $4,630,723 and $4,010,902 respectively.

As of September 30, 2007 future lease payments due under operating leases are as follows:

                2007                            $     29,788
                2008                                  25,718
                2009                                  24,361
                2010                                  24,361
                2011                                  24,361
                Thereafter                           379,625
                Total future payments               $508,214




                                           12                                           

NOTE 10. COMMITMENTS AND CONTINGENCIES

FinCEN is party to various administrative proceedings, legal actions and claims. To the extent
applicable, the balance sheet includes an estimated liability for those legal actions where the Legal
Counsel considers adverse decisions “probable” and the potential loss can be estimated.
Management has determined that it is not probable that some of these proceedings and actions will
result in the incurrence of liabilities as of September 30, 2007 and 2006, and accordingly no legal
liabilities have been accrued in the accompanying financial statements.

There are two legal actions pending where adverse decisions are considered to be “reasonably
possible” as of September 30, 2007. Complainant’s attorneys estimate the possible loss at
approximately $30,000, plus compensatory damages for both cases. There was one legal action
pending where adverse decision was considered to be “reasonably possible” as of September 30,
2006. This case was settled in fiscal year 2007.

Reasonably possible losses are not recognized on the balance sheet.




                                             13                                              

NOTE 11. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

Intragovernmental costs and exchange revenue for the years ended September 30, 2007 and 2006
consisted of the following:


                                                             2007                        2006
PROGRAM COSTS
Protect the financial system
   Intragovernmental costs                               $13,000,527                 $12,568,108 

   Public costs                                           14,540,936                  12,298,809          

       Total program costs                                27,541,463                  24,866,917
   Intragovernmental earned revenue                         (363,217)                   (297,424)
Net program cost                                          27,178,246                  24,569,493

Combat terrorism, money laundering, and
other financial crime
   Intragovernmental costs                                11,934,078                   10,542,669         

   Public costs                                           13,348,125                   10,316,770         

       Total program costs                                25,282,203                   20,859,439
   Intragovernmental earned revenue                         (333,422)                    (249,492)
Net program cost                                          24,948,781                   20,609,947

Intensify international anti-money laundering
collaboration
    Intragovernmental costs                                1,574,283                    2,285,110             

    Public costs                                           1,760,816                    2,236,147             

        Total program costs                                3,335,099                    4,521,257
    Intragovernmental earned revenue                         (43,983)                     (54,077)
Net program cost                                           3,291,116                    4,467,180

Facilitate compliance, data management, and
information sharing through e-Government
   Intragovernmental costs                               24,274,423                   26,538,443          

   Public costs                                          27,150,654                   25,969,799          

        Total program costs                              51,425,077                   52,508,242
   Intragovernmental earned revenue                        (678,194)                    (628,032)
Net program cost                                         50,746,883                   51,880,210
Net cost of operations                                  $106,165,026                 $101,526,830

The criteria used for this classification are that the intragovernmental costs relate to the source of
goods and services purchased by the reporting entity, and not to the classification of related revenue.
For example, “exchange revenue with the public” is when the buyer of the goods or services is a
non-Federal entity. While with “intragovernmental costs,” the buyer and seller are both Federal


                                              14                                               

entities. If a Federal entity purchases goods or services from another Federal entity and sells them to
the public, the exchange revenue would be classified as “with the public,” but the related costs
would be classified as “intragovernmental.” The purpose of this classification is to enable the
Federal government to provide consolidated financial statements, and not to match public and
intragovernmental revenue with costs that are incurred to produce public and intragovernmental
revenue.

NOTE 12. STATEMENT OF BUDGETARY RESOURCES

Apportionment Categories of Obligations Incurred
Obligations incurred as reported on the Statement of Budgetary Resources for the years ended
September 30, 2007 and 2006 consisted of the following:


                                                      2007                     2006
Direct Obligations
   Category B                                      $75,962,067            $70,936,071
Reimbursable Obligations
   Category B                                        1,976,572              3,574,531
Total                                              $77,938,639            $74,510,602

Apportionment categories are determined in accordance with the guidance provided in OMB
Circular A-11, Preparation, Submission and Execution of the Budget. Category B represents
resources apportioned for other time periods other than calendar quarters; for activities, projects, or
objectives; or for any combination thereof. FinCEN only has Category B apportionments.

Adjustments to Beginning Balance of Budgetary Resources
Adjustments to budgetary resources available at the beginning of fiscal years 2007 and 2006
consisted of the following:


                                                      2007                     2006

Recoveries of prior year obligations               $1,083,210              $2,800,592
Cancellations of expired accounts                    (464,501)               (569,043)
Enacted reductions                                          -                (736,300)
Total                                                $618,709              $1,495,249

Differences Between the Statement of Budgetary Resources and the Budget of the United States
The fiscal year 2009 Budget of the United States Government (also known as the President’s Budget)
with actual numbers for fiscal year 2007, was not published at the time these financial statements
were issued. The President’s Budget is expected to be published in February 2008.




                                              15                                               

The following chart displays the differences between the fiscal year 2006 Statement of Budgetary
Resources and the actual fiscal year 2006 balances included in the fiscal year 2008 President’s
Budget.
                                                            (In millions)
                                     Budgetary     Obligations       Offsetting       Net
                                     Resources       Incurred         Receipts      Outlays
Statement of Budgetary Resources      $ 73          $ 74              $ 3           $ 72
Obligations in expired accounts not
   included in President’s Budget         -              -                -            -
President’s Budget                    $ 73          $ 74              $ 3           $ 72

Undelivered Orders at the End of the Period
Undelivered orders as of September 30, 2007 and 2006 were $8,727,449 and $7,286,626,
respectively.


NOTE 13. STATEMENT OF CUSTODIAL ACTIVITY

FinCEN assesses civil monetary penalties related to enforcement of the Bank Secrecy Act as
authorized by 31 U.S.C. 5321(b). FinCEN collects this custodial revenue and distributes the full
amount of penalties collected to the Treasury General Fund. For the years ended September 30, 2007
and 2006 cash collections and distributions to Treasury were $13,461,367 and $1,437,338,
respectively. The custodial accrual adjustment totaling $2,497,179 and $2,500,000 at September 30,
2007 and 2006, respectively, reflects the change in accounts receivable FinCEN has which are offset
by the decrease in custodial liability – amounts yet to be transferred of $2,497,179 in 2007 and an
increase in custodial liability – amounts yet to be transferred of $2,500,000 in 2006.

NOTE 14. IMPUTED FINANCING SOURCES

FinCEN has imputed financing costs with the Office of Personnel Management as well as the
Internal Revenue Service. Imputed financing sources from the Internal Revenue Service for the
collection and processing of Bank Secrecy Act Data for the years ended September 30, 2007 and
2006 were $22,969,563 and $24,232,012, respectively. A summary of the imputed financing costs by
agency for the years ended September 30, 2007 and 2006 is as follows:


                                                  2007                      2006

Office of Personnel Management                $ 1,968,866               $ 1,914,611
Internal Revenue Service                       22,969,563                24,232,012
Total Imputed Financing Sources               $24,938,429               $26,146,623




                                                16
NOTE 15. 	RECONCILIATION OF NET COST OF OPERATIONS (PROPRIETARY)
          TO BUDGET

FinCEN changed its method of reporting the reconciliation of the Net Cost of Operations to
budgetary resources during FY 2007. Effective FY 2007 and in accordance with OMB Circular
A-136, the Statement of Financing is no longer considered a basic financial statement. In
previous years, this reconciliation was accomplished by presenting Statement of Financing as a
basic financial statement.

For the Fiscal Years Ended September 30, 2007 and 2006:

                                                                   For the Years Ended September 30
                                                                      2007                  2006
Resources used to finance activities:
Budgetary resources obligated:
   Obligations incurred                                            $77,938,639             $74,510,602
   Less: Spending authority from offsetting collections and
       recoveries                                                   (3,010,009)                (6,365,367)
   Obligations net of offsetting collections and recoveries         74,928,630                 68,145,235
   Less: Offsetting receipts                                             (3,440)                   (2,338)
   Net obligations                                                  74,925,190                 68,142,897
Other resources:
   Transfers in/out without reimbursement                                    -                  2,300,000
   Imputed financing from costs absorbed by others                  24,938,429                 26,146,623
   Net other resources used to finance activities                   24,938,429                 28,446,623

Total resources used to finance activities                          99,863,619                 96,589,520

Resources used to finance items not part of the net cost of
 operations:
Change in budgetary resources obligated for goods, services
   and benefits ordered but not yet provided                          444,224                  (7,174,952)
Resources that fund expenses recognized in prior periods              365,333                     374,634
Budgetary offsetting collections and receipts that do not affect
   net cost of operations
       Other                                                             (3,440)               (2,302,338)
Resources that finance the acquisition of assets                     2,694,594                   9,435,629
Other resources or adjustments to net obligated resources that
   do not affect net cost of operations                                      -                  2,300,000
Total resources used to finance items not part of the net
   cost of operations                                                3,500,711                  2,632,973

Total resources used to finance the net cost of operations          96,362,908                 93,956,547


                                                                                 (Continued)




                                                17                                                   

                                                                For the Years Ended September 30
                                                                   2007                  2006




Components of the net cost of operations that will not
   require or generate resources in the current period:
Components requiring or generating resources in future
   periods:
       Increase in annual leave liability                          $10,873              $40,103
       Other                                                         4,095                  320
Total components of net cost of operations that will require
   or generate resources in future periods                          14,968               40,423
Components not requiring or generating resources:
   Depreciation and amortization                                  2,713,477           2,480,749
   Revaluation of assets or liabilities                           7,073,673           5,060,050
   Other                                                                  -             (10,939)
Total components of net cost of operations that will not
   require or generate resources                                  9,787,150           7,529,860

Total components of net cost of operations that will not
   require or generate resources in the current period            9,802,118           7,570,283

Net cost of operations                                         $106,165,026        $101,526,830




                                                   18
                        United States Department of the Treasury 

                         Financial Crimes Enforcement Network 

                          Required Supplementary Information 

                    For the Years Ended September 30, 2007 and 2006


STATEMENT OF BUDGETARY RESOURCES
Budgetary resources disaggregated by major accounts for the years ended September 30, 2007 and
2006 consisted of the following:

                                                                            2007
                                                         Appropriated       Trust
                                                           Funds            Funds          Total
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1          $13,105,616        $64,894     $13,170,510
Recoveries of prior year unpaid obligations                1,083,210                      1,083,210
Budget authority:
  Appropriations                                          73,216,364                -   $73,216,364
Spending authority from offsetting collections:
  Earned
    Collected                                              1,357,315                -     1,357,315
    Change in receivables from Federal sources                61,500                -        61,500
  Change in unfilled customer orders
    Without advance from Federal sources                      507,984             -         507,984
  Subtotal                                                75,143,163              -      75,143,163
Non-expenditure transfer, net: anticipated and actual        225,000               -        225,000
Permanently not available                                    (464,501)            -       (464,501)
Total budgetary resources                                $89,092,488        $64,894     $89,157,382


STATUS OF BUDGETARY RESOURCES
Obligations incurred:
  Direct                                                 $75,958,766         $3,301     $75,962,067 

  Reimbursable                                             1,976,572              -       1,976,572 

  Subtotal                                                77,935,338          3,301      77,938,639
Unobligated balance:
  Apportioned                                              7,492,369         61,593       7,553,962
Unobligated balance not available                          3,664,781              -       3,664,781
Total status of budgetary resources                      $89,092,488        $64,894     $89,157,382



                                                                         (Continued)




                                                    19                                      

                                                                            2007
                                                            Appropriated    Trust
                                                              Funds         Funds               Total
CHANGE IN OBLIGATED BALANCES
Obligated balance, net:
  Unpaid obligations brought forward, October 1             $19,474,850     $91,576         $19,566,426
  Less: Uncollected customer payments from Federal
    sources, brought forward, October 1                        (124,939)           -            (124,939)
  Total unpaid obligated balance, net                        19,349,911      91,576          19,441,487
Obligations incurred, net                                    77,941,940      (3,301)         77,938,639
Less: Gross outlays                                         (80,191,934)     (6,842)        (80,198,776)
Less: Recoveries of prior year unpaid obligations, actual    (1,083,210)           -          (1,083,210)
Change in uncollected customer payments from Federal
  sources                                                      (569,484)            -         (569,484)
Obligated balance, net, end of period
  Unpaid obligations                                         16,135,044      88,035          16,223,079
  Less: Uncollected customer payments from Federal
    sources                                                    (694,423)                -     (694,423)
Total, unpaid obligated balance, net, end of period         $15,440,621     $88,035         $15,528,656

NET OUTLAYS
 Gross outlays                                              $80,191,934      $6,842         $80,198,776 

 Less: Offsetting collections                                (1,357,315)          -           (1,357,315) 

 Less: Distributed offsetting receipts                            (3,440)         -               (3,440) 

Net outlays                                                 $78,831,179      $6,842         $78,838,021




                                                     20                                          

                       United States Department of the Treasury 

                        Financial Crimes Enforcement Network 

                         Required Supplementary Information 

                   For the Years Ended September 30, 2007 and 2006

                                                                           2006
                                                         Appropriated      Trust
                                                           Funds           Funds            Total
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1          $ 8,961,558        $29,530     $8,991,088
Recoveries of prior year unpaid obligations                2,789,834         10,758      2,800,592
Budget authority:
   Appropriations                                         73,630,000               -    73,630,000
  Spending authority from offsetting collections:
    Earned
      Collected                                            3,521,340         42,755      3,564,095
      Change in receivables from Federal sources              12,761              -         12,761
    Change in unfilled customer orders
      Without advance from Federal sources                    (12,081)            -        (12,081)
  Subtotal                                                77,152,020         42,755     77,194,775
Permanently not available                                 (1,305,343)             -     (1,305,343)
Total budgetary resources                                $87,598,069        $83,043    $87,681,112


STATUS OF BUDGETARY RESOURCES
Obligations incurred:

  Direct                                                 $70,917,922        $18,149    $70,936,071
  Reimbursable                                             3,574,531              -      3,574,531
  Subtotal                                                74,492,453         18,149     74,510,602
Unobligated balance:
  Apportioned                                             10,014,683         64,894     10,079,577
Unobligated balance not available                          3,090,933              -      3,090,933
Total status of budgetary resources                      $87,598,069        $83,043    $87,681,112


                                                                         (Continued)




                                                    21                                  

                                                                            2006
                                                            Appropriated    Trust
                                                              Funds         Funds            Total
CHANGE IN OBLIGATED BALANCES
Obligated balance, net
  Unpaid obligations brought forward, October 1             $22,961,886    $104,513     $23,066,399
  Less: Uncollected customer payments from Federal
    sources, brought forward, October 1                        (124,259)          -        (124,259)
Total unpaid obligated balance, net                          22,837,627     104,513      22,942,140
Obligations, incurred, net                                  (74,492,453)    (18,149)     (74,510,602)
Less: Gross outlays                                         (75,189,656)    (20,328)     (75,209,984)
Less: Recoveries of prior year unpaid obligations, actual    (2,789,834)    (10,758)      (2,800,592)
Change in uncollected customer payments from Federal
  sources                                                         (680)             -            (680)
Obligated balance, net, end of period
  Unpaid obligations                                         19,474,850      91,576       19,566,426
  Less: Uncollected customer payments from Federal
    sources                                                    (124,939)          -        (124,939)
Total, unpaid obligated balance, net, end of period         $19,349,911     $91,576     $19,441,487

NET OUTLAYS
  Gross outlays                                             $75,189,656     $20,328     $75,209,984
  Offsetting collections                                     (3,521,340)    (42,755)      (3,564,095)
  Distributed offsetting receipts                                (2,338)           -          (2,338)
Net outlays                                                 $71,665,978    ($22,427)    $71,643,551




                                                     22                                  

THIS PAGE INTENTIONALLY LEFT BLANK 

